No. 19-232
In the

Supreme Court of the United States
NEW MIGHTY U.S. TRUST, ET AL.,
Petitioners,
v.
ROBERT SHI, ET AL., AS EXECUTORS
OF THE WILL OF YUEH-LAN WANG,
Respondents.
On Petition for a Writ of Certiorari
United States Court of A ppeals
for the District of Columbia Circuit

to the

MOTION FOR LEAVE TO FILE BRIEF
AND BRIEF OF AMICUS CURIAE
PROFESSOR GEORGE A. BERMANN
IN SUPPORT OF PETITIONERS
David B. Toscano
Counsel of Record
Frances E. Bivens
Rebecca L. Martin
David J. Richards
Davis Polk & Wardwell LLP
450 Lexington Avenue
New York, New York 10017
(212) 450-4000
david.toscano@davispolk.com
Counsel for Amicus Curiae
Professor George A. Bermann
291276

A
(800) 274-3321 • (800) 359-6859

MOTION FOR LEAVE TO
FILE AMICUS CURIAE BRIEF
Professor George A. Bermann respectfully requests
leave to file this timely amicus curiae brief in support of
the Petition. His distinguished career and vast experience
with transnational litigation, as outlined below, uniquely
qualify him to assist the Court in its consideration of the
Petition. Professor Bermann’s interest in the Petition is to
defend the forum non conveniens doctrine, which is highly
significant to transnational litigation, against errant legal
developments in the lower courts.
Professor Bermann moves because Respondents,
who have waived their right to oppose the Petition, have
nonetheless objected to this brief. Respondents assert
that he “has been retained as a paid expert witness in a
related matter abroad by the same persons who control
[Petitioner] New Mighty U.S. Trust.” They refer to
Professor Bermann’s retention, more than five years ago,
by counsel for four Bermuda trusts as an expert witness
before the Supreme Court of Bermuda. Counsel included
Skadden, Arps, Slate, Meagher & Flom LLP, which
represents Petitioners before this Court. In 2013 and 2014,
Professor Bermann submitted two sworn affidavits to the
Bermuda court, opining on U.S. discovery in aid of foreign
litigation pursuant to 28 U.S.C. § 1782.
Respondents’ objection to this brief based on
Professor Bermann’s past expert work lacks merit. This
brief has no connection with Professor Bermann’s work
as a paid expert in the Bermuda litigation. The subject
matter of his expert opinions is different from the forum
non conveniens issues addressed in this brief. Professor

Bermann has had no dealings or contact whatsoever—
directly or indirectly—with the trusts since that time, and
he has absolutely no financial interest in the outcome of the
Bermuda litigation or this litigation. Moreover, Professor
Bermann is represented by his own counsel before this
Court and, as noted in the amicus brief, no counsel for a
party authored the brief in whole or in part, and no party
or its counsel made a monetary contribution intended to
fund the preparation or submission of the brief.
For all of these reasons, Professor Ber mann
respectively requests that the Court grant him leave to
file this amicus curiae brief in support of Petitioners.

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
TABLE OF CITED AUTHORITIES
Page
CASES
Asahi Metal Indus. Co. v. Super. Ct.,
480 U.S. 102 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Bristol-Myers Squibb Co. v. Super. Ct. of Cal.,
137 S. Ct. 1773 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Dahl v. United Techs. Corp.,
632 F.2d 1027 (3d Cir. 1980) . . . . . . . . . . . . . . . . . . . . . 7
Gulf Oil Corp. v. Gilbert,
330 U.S. 501 (1947)  . . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 9
Leroy v. Great W. United Corp.,
443 U.S. 173 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Piper Aircraft Co. v. Hartzell Propeller, Inc.,
454 U.S. 235 (1981)  . . . . . . . . . . . . . . . . . . . . .  4, 5, 7, 10
PTW Energy Servs., Inc. v. Carriere,
2019 WL 3996874 (D. Colo. Aug. 23, 2019) . . . . . . . . . 7
Shi v. New Mighty U.S. Trust,
918 F.3d 944 (D.C. Cir. 2019) . . . . . . . . . . . . . . . . 4, 5, 7
Sinochem Int’l Co. Ltd. v.
Malay. Int’l Shipping Corp.,
549 U.S. 422 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7

iii
Cited Authorities
Page
Stewart v. Dow Chem. Co.,
865 F.2d 103 (6th Cir. 1989) . . . . . . . . . . . . . . . . . . . . . 7
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
STATUTES AND RULES
Fed. R. Civ. P. 28  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
OTHER AUTHORITIES
George A. Bermann et al., Application of the
Doctr ine of For um Non Conveniens in
Summary Proceedings for the Recognition
and Enforcement of Awards Governed by
the New York and Panama Conventions,
24 A m. Rev. Int’l A rb. 1 (2013) . . . . . . . . . . . . . . . . . . 3
Maggie Gardner, Retiring Forum Non Conveniens,
92 N.Y.U. L. Rev. 390 (2017) . . . . . . . . . . . . . . . . . . . 7, 8
Walter W. Heiser, Forum Non Conveniens
and Choice of Law: The Impact of Applying
Foreign Law in Transnational Tort Actions,
51 Wayne L. Rev. 1161 (2005)  . . . . . . . . . . . . . . . . . . . 8
William L. Reynolds, The Proper Forum for a Suit:
Transnational Forum Non Conveniens and
Counter-Suit Injunctions in the Federal Courts,
70 Tex. L. Rev. 1663 (1992)  . . . . . . . . . . . . . . . . . . . . . 8

iv
Cited Authorities
Page
U.S. Department of State, Preparation of Letters
Rogatory  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
U.S. Department of State, Taiwan Judicial
Assistance Information . . . . . . . . . . . . . . . . . . . . . . 8, 9

1
INTEREST OF AMICUS CURIAE1
Amicus curiae George A. Bermann is the Jean
Monnet Professor of European Union Law, Walter
Gellhorn Professor of Law, and the director of the Center
for International Commercial and Investment Arbitration
at Columbia Law School. A Columbia Law School faculty
member since 1975, Professor Bermann teaches courses
in, and has written extensively about, transnational
dispute resolution (international arbitration and
litigation), European Union law, international contracts,
administrative law, and World Trade Organization law.
He is an affiliated faculty member of the School of Law of
Sciences Po in Paris and the MIDS Masters Program in
International Dispute Settlement in Geneva. He is also a
visiting professor at the Georgetown Law Center.
Professor Bermann is an active international
arbitrator in commercial and investment disputes; chief
reporter of the American Law Institute’s Restatement
of the Law, The U.S. Law of International Commercial
and Investor-State Arbitration; co-author of the United
Nations Commission on International Trade Law
(“UNCITRAL”) Secretariat Guide on the Convention on
1. No counsel for a party authored the brief in whole or in part,
and no party or its counsel made a monetary contribution intended
to fund the preparation or submission of the brief. On September
10, 2019, Professor Bermann timely notified counsel of record for
Petitioners, and counsel that represented Respondents before
the Court of Appeals, of his intent to file this brief. Petitioners
consented. The parties have been given at least 10 days notice of
amicus’ intention to file. Petitioners have consented to the filing
of this brief. Respondents have not, so amicus moves for leave to
file in the attached motion.

2
the Recognition and Enforcement of Foreign Arbitral
Awards; chair of the Global Advisory Board of the New
York International Arbitration Center; co-editor-in-chief
of the American Review of International Arbitration;
and founding member of the governing body of the
International Chamber of Commerce Court of Arbitration
and a member of its standing committee.
Professor Bermann is interested in this case
because the decision below, effectively erases the
difference between the time-honored doctrine of forum
non conveniens and the distinct concept of personal
jurisdiction, by giving decisive weight to the defendants’
residence in the plaintiffs’ chosen of forum. The decision
is a significant departure from prior Supreme Court
precedent, and accordingly requires thorough review and
scrutiny by this Court to ensure the continued vitality of
this Court’s precedents as well as the survival of forum
non conveniens, a doctrine that serves a critical function
in transnational litigation.
SUMMARY OF ARGUMENT
The Court of Appeals erred as a matter of law by, in
effect, according dispositive weight to the fact that the
defendants are at home in the foreign plaintiffs’ chosen
forum. The decision below is contrary to this Court’s
controlling precedents. Its effect is to displace the
forum non conveniens doctrine by personal jurisdiction
principles. If allowed to stand, the decision below will
deprive defendants, witnesses, and forums (both domestic
and foreign) of the long-recognized benefits of a forum
non conveniens dismissal when foreign plaintiffs sue
defendants in their home forums on claims with little,

3
if any, connection to the chosen forums. Even though a
foreign plaintiff sues a U.S. defendant at its home, the
litigation may still be one that does not, on the balancing
of all relevant criteria, belong in U.S. court. To hold
otherwise would be to maintain that suits brought against
a U.S. party under the general jurisdiction of a U.S. court
are immune from dismissal on forum non conveniens
grounds. No court has taken that position before.
ARGUMENT
Forum non conveniens is a resource-conserving
doctrine that permits a trial court, in its discretion, to
decline jurisdiction over a case whose connections to the
United States are attenuated when there is an adequate
alternative foreign forum. See George A. Bermann et al.,
Application of the Doctrine of Forum Non Conveniens
in Summary Proceedings for the Recognition and
Enforcement of Awards Governed by the New York and
Panama Conventions, 24 A m. Rev. Int ’l A rb. 1, 1 (2013).
In concluding that the District Court committed a
“clear abuse of discretion,” the Court of Appeals placed
too heavy a thumb on the scale in favor of the foreign
plaintiffs’ chosen forum merely because the defendants
are at home there. Indeed, the Court of Appeals effectively
accorded dispositive weight to that fact by assigning the
defendants’ residence in the forum critical importance at
each step of its forum non conveniens analysis.
First, in determining the amount of deference due to
plaintiffs’ choice of forum, the Court of Appeals reasoned
that the District Court “failed to adequately address” that
“the Trusts were sued in their home jurisdiction, which

4
weighs heavily against dismissal.” Shi v. New Mighty
U.S. Trust, 918 F.3d 944, 950 (D.C. Cir. 2019). Second,
in weighing the private interest factors, the Court of
Appeals reasoned that “[t]he district court clearly failed
to hold the Trusts to their ‘heavy burden’ to show that a
foreign forum is significantly more convenient than a U.S.
forum that is their home jurisdiction.” Id. at 952 (citation
omitted). Third, in assessing the public interest factors,
the Court of Appeals reasoned that “[t]he Trusts can
hardly complain now that they are burdened by being sued
in their home jurisdiction when Y.C. Wang specifically
bestowed upon the District of Columbia an interest in this
case by establishing the Trusts here.” Id.
Thus, the fact that the defendants are at home in
the plaintiffs’ chosen forum was critical to the Court of
Appeals’ attempt to overcome the “substantial deference”
it owed to the District Court’s forum non conveniens
dismissal. Piper Aircraft Co. v. Hartzell Propeller, Inc.,
454 U.S. 235, 257 (1981). Indeed, the Court of Appeals’
forum non conveniens inquiry was dominated by the
defendants’ relationship with the forum, which effectively
displaced all the other factors relevant to a proper
evaluation of forum non conveniens. The fact that a
defendant is sued at home does, in and of itself, favor a
court’s retaining jurisdiction to hear a case, but it does
not, in and of itself, dictate that result. The Court of
Appeals’ fixation on a single fact flies in the face of this
Court’s unambiguous admonition against placing “central
emphasis . . . on any one factor.” Id. at 249–50.
The heavy weight that the Court of Appeals placed
on the defendants’ home is disproportionate to the
importance that this Court generally attributes to the

5
location of parties in the forum non conveniens inquiry.
In Piper Aircraft, the Court reasoned that it may be
reasonable to assume that the plaintiff’s choice of forum
is convenient, but “[w]hen the plaintiff is foreign . . . this
assumption is much less reasonable. Because the central
purpose of any forum non conveniens inquiry is to ensure
that the trial is convenient, a foreign plaintiff’s choice
deserves less deference.” Piper Aircraft, 454 U.S. at
255–56; Sinochem Int’l Co. Ltd. v. Malay. Int’l Shipping
Corp., 549 U.S. 422, 423 (2007). Thus, when the plaintiff
is not at home in its chosen forum, its choice is entitled to
less, but certainly still some, deference.
In contrast, the decision below holds that the fact that
the defendants are at home in the plaintiffs’ chosen forum
“weighs heavily against dismissal.” Shi, 918 F.3d at 950.
Thus, the Court of Appeals placed greater weight (against
forum non conveniens dismissal) on the defendants’ being
U.S.-based than this Court in Piper Aircraft placed (in
favor of forum non conveniens dismissal) on the plaintiffs’
being non-U.S.-based. As this case shows, the Court of
Appeals’ lopsided weighing has the practical effect of
precluding at-home defendants from invoking forum non
conveniens. The Court of Appeals does not explain why, in
a multi-factor analysis centered solely on convenience, a
defendant’s residence in the forum should, in and of itself,
be outcome-determinative when the same is not true for
a plaintiff’s residence outside the forum.
Significantly, the very fact on which the Court of
Appeals fixated—namely, that the defendants are at
home in the forum—functions as the basis of the District
Court’s jurisdiction over the defendants, without which
the action could not proceed in the first place. Personal

6
jurisdiction “goes to the court’s power to exercise control
over the parties.” Leroy v. Great W. United Corp., 443
U.S. 173, 180 (1979).
“ The primary focus of [the Court’s] personal
jurisdiction inquiry is the defendant’s relationship to the
forum . . . .” and “the ‘primary concern’ is ‘the burden on
the defendant.’” Bristol-Myers Squibb Co. v. Super. Ct. of
Cal., 137 S. Ct. 1773, 1779, 1780 (2017) (quoting World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286, 292 (1980)).
That inquiry is central to the due process implications
of subjecting a defendant to the burdens of litigating in
a distant forum, and to the limits on the forum’s power
over a defendant that lacks meaningful connections to
the forum. See, e.g., Bristol-Myers Squibb Co., 137 S. Ct.
at 1780–81; World-Wide Volkswagen, 444 U.S. at 292–94.
But forum non conveniens doctrine is highly distinct
from personal jurisdiction doctrine. The forum non
conveniens inquiry does not address the authority of a
court to hear a case; it concerns the court’s suitability to do
so. It is therefore understandably multidimensional. The
relevant factors include private interest factors such as
the “relative ease of access to sources of proof; availability
of compulsory process for attendance of unwilling, and
the cost of obtaining attendance of willing, witnesses,”
and public interest factors such as “local interest in
having localized controversies decided at home” and the
appropriateness of “having the trial of a diversity case
in a forum that is at home with the state law that must
govern the case, rather than having a court in some other
forum untangle problems in conflict of laws, and in law
foreign to itself.” Gulf Oil Corp. v. Gilbert, 330 U.S. 501,
508–09 (1947).

7
Significantly, this Court has explained that forum
non conveniens analysis “presupposes” that the plaintiff’s
chosen forum has jurisdiction over the defendant.
Sinochem, 549 U.S. at 434; Gilbert, 330 U.S. at 504.
Therefore, the existence of personal jurisdiction should
not drive forum non conveniens analysis, and it is
well established that courts may invoke the forum non
conveniens doctrine to dismiss an action brought in the
defendant’s home forum, where the court has personal
jurisdiction over the defendant. See, e.g., Piper Aircraft,
454 U.S.; Dahl v. United Techs. Corp., 632 F.2d 1027 (3d
Cir. 1980); Stewart v. Dow Chem. Co., 865 F.2d 103 (6th
Cir. 1989); PTW Energy Servs., Inc. v. Carriere, 2019 WL
3996874 (D. Colo. Aug. 23, 2019).
By placing the factor that is central to personal
jurisdiction analysis—presence—at the core of its
assessment of forum non conveniens, the Court of
Appeals essentially subjected the outcome of a forum non
conveniens application to jurisdictional analysis. Notably,
that is precisely the result advocated by a law review
article—entitled “Retiring Forum Non Conveniens”—
cited by the Court of Appeals in the decision below. Shi,
918 F.3d at 951 (citing Maggie Gardner, Retiring Forum
Non Conveniens, 92 N.Y.U. L. Rev. 390, 409 (2017)).
The article expressly advocates “reform” of this Court’s
forum non conveniens doctrine “to exclude its application
in cases involving local defendants.” Gardner, supra, at 417.
Under that view, forum non conveniens would be entirely
displaced where, as here, the court has general jurisdiction
over the defendant. Where the issue is specific jurisdiction,
the article likewise proposes “to scrap the forum non
conveniens approach” in favor of a personal jurisdiction

8
analysis based on “updating and narrowing” the fairness
factors set forth in Asahi Metal Industry Co. v. Superior
Court, 480 U.S. 102 (1987). Gardner, supra, at 434. By
giving the defendants’ home status decisive weight, the
Court of Appeals has, in effect, already implemented the
article’s plan for “retiring” forum non conveniens.
Focusing principally, if not exclusively, on the
defendant’s ties to the forum assumes that the plaintiff’s
chosen forum is necessarily a convenient one for the
defendant and witnesses. That assumption is unfounded.
See William L. Reynolds, The Proper Forum for A Suit:
Transnational Forum Non Conveniens and Counter-Suit
Injunctions in the Federal Courts, 70 Tex. L. Rev. 1663,
1695 (1992) (“Over half of the dismissals in my sample
involved American defendants, all of whom were corporate,
sometimes joined with foreign defendants. These results
should not surprise anyone. Both private and public
interests analysis can easily point to a proper forum abroad
for an American company.”); Walter W. Heiser, Forum Non
Conveniens and Choice of Law: The Impact of Applying
Foreign Law in Transnational Tort Actions, 51 Wayne L.
Rev. 1161, 1175 (2005) (concluding that a presumption that
the state where a corporate defendant has its principal place
of business is a convenient forum is “very weak”).
This case illustrates the flaws in that assumption. For
example, while there are tools for developing evidence
transnationally, Taiwan is not a party to the Hague
Convention on the Taking of Evidence Abroad in Civil
or Commercial Matters. 2 Thus, compelling evidence
2. U.S. Department of State, Taiwan Judicial Assistance
Information, https://travel.state.gov/content/travel/en/legal/
Judicial-Assistance-Country-Information/Taiwan.html.

9
production or the deposition of an unwilling witness in
Taiwan for use in U.S. litigation requires a lengthy process
using letters rogatory 3 and may yield only restricted
questioning performed by a judge rather than counsel.4
By ignoring Gilbert’s “flexible” analysis that—like the
District Court below—would have considered the totality
of circumstances in this case that compel dismissal in
favor of Taiwan, and instead fixating on the defendants’
residence, the Court of Appeals effectively abrogated a
critical antidote to international forum shopping. Under
the Court of Appeals’ framework, defendants sued in their
home forum are left with little, if any, recourse against
forum-shopping by foreign plaintiffs.

3. U.S. Department of State, Preparation of Letters
Rogatory, https://travel.state.gov/content/travel/en/legal/travellegal-considerations/internl-judicial-asst/obtaining-evidence/
Preparation-Letters-Rogatory.html (“Execution of letters
rogatory may take a year or more.”).
4. According to the U.S. Department of State, “[i]f the
letters rogatory requests the taking of evidence, the Taiwan
court will not permit examination of witnesses by attorneys;
witnesses would be examined by the court on the basis of written
questions.” U.S. Department of State, Taiwan Judicial Assistance
Information, https://travel.state.gov/content/travel/en/legal/
Judicial-Assistance-Country-Information/Taiwan.html; see also
Fed. R. Civ. P. 28, advisory committee’s note to 1963 amendment
(“In executing a letter rogatory the courts of other countries
may be expected to follow their customary procedure for taking
testimony. In many noncommon-law countries the judge questions
the witness, sometimes without first administering an oath, the
attorneys put any supplemental questions either to the witness
or through the judge, and the judge dictates a summary of the
testimony, which the witness acknowledges as correct.”).

10
CONCLUSION
Forum non conveniens has long occupied a crucial
role in ensuring the fairness and efficiency of transnational
proceedings brought in the United States. Because the
decision below represents a significant departure from
prior Supreme Court precedent, anchored in Piper
Aircraft, and a significant infringement on this Court’s
role in defining the doctrine of forum non conveniens, it
requires thorough review and scrutiny by this Court. This
Court should grant the Petition.
Respectfully submitted,
David B. Toscano
Counsel of Record
Frances E. Bivens
Rebecca L. Martin
David J. Richards
Davis Polk & Wardwell LLP
450 Lexington Avenue
New York, New York 10017
(212) 450-4000
david.toscano@davispolk.com
Counsel for Amicus Curiae
Professor George A.
Bermann

